                                               UNCLASSIFIEI) 


Report No. I I- INTEL-13 (Project No. 02010-DlNTOI-OI73.0[)O)              Jllly 18, lOll 




                Results in Brief: Improvements Needed in
                Sharing Tacticallnteliigence with the
                International Security Assistance Force­
                Afghanistan (U) 

(U) What We Did                                             • Stand~rdi/.e and ul>date the training and
                                                            ce rtificati on for and track the management
(U) We evaluated U.S. Forces-Afghanistan                    of the U.S . Army Foreig n Disclosure
compliance with DOD and Nonh Atlantic                       Officers und Fore ign Disclosurc
 lremy Organization guidance for provi ding                 Representati ve~;
U.S. tactical intelligence infonnmion to                    • Update the Nationa lO;sclosure Policy
coalition forees. V·/e emp loyed a case stlldy              rebtin g to shari ng classified military
methodology to determ ine l fth~ pnx;esses and              information in a coal ition envi ronment;
procedl.lres for sharing th eater generated tactical        • Develo p an im plementation plan and
                                                            oversight proce,s to ensure U.S. forces
intelligence with the Polish Battle Group in                comply wi th the po licy that all tacti cal
Afghanistan were accomplished in a timely and               infunnatio n collected in Afghanistan be
responsive manner. The case study identified                prepared in a format rekasable to
necessary improvements to in fonnation sharing              International Security Assistanc~ Force­
wi th all ~oahtion partners.                                Afghanistan: and
                                                            • Implement the creation of a single,
(U) What We Found                                           theater-wide, compl.lterized source regist ry
                                                            to be used by coalition for dc -confl iction of
(ll) Impediments to inte lh gence information               cuunterintelligence and human Intell igence
sharing between U.S. force~ and ~oa1i tiun                  s.ource data.
]XIrtner~ h<lve exi sted lor year:;. However, the
imped imenb continue to include: inadequate
information sharing training: outd ated foreign
                                                         (U) Management Comments
disclosure policies and proc edures; and the             and Our Response
<Ibsenc e of a source registry for coahlion iorces       (U) Of our seven rccollllllend<l\ion s.
to de -connict counterintelligence and human             management concurred or made acceptable
intelligence source dma. Th is has resulted in           alternative actions for four recommend ations.
information not being tactically useful by the           We redirected une recommendation based on a
time it is authorized for release.                       review of draft comments and furt her
                                                         assessment of recontntendations. Mall<lg~ment
(U) What We Recommend                                    did not concur wi th one recontmend<ltiOIl : we
(U) In order to implement the improvements we            ask that they reconsider h<lsed on our
iden tilied. we mad e recummend<ltions to '              clarification of the recommendation. For onc
    • Establi sh standardized training and an            "'~ommendation . we require managcment
    oversight process for wri te-for-releasc, tear­      provi de additional information to clarify
    line, and classiiic<ltionmarkin g for                comments. All management comments to the
    producers 0 f classified military in form ati un;    final report are requested by August 18.2011.
    • Estab lish po licy requiring U.S. forc e~
    conduct pre-deploymell1training with
    coalition p<lnners they would deploy with to
    include training on the communications
    ~ystems for sharing information:



                                               lJNCLASSIFJF:1)
